4

No.

In The

Supreme Court of the United States
In re LORCAN T. KILROY,
Petitioner,
v.
LOS ANGELES UNIFIED
SCHOOL DISTRICT BOARD OF
EDUCTION et al.,
Respondents.

PROOF OF SERVICE
Lorcan T. Kilroy
In Pro Se
8927 Cedros Avenue, No. 6
Panorama City
California 91402
Telephone: (818) 481-4873
Email: lorcankilroy@gmail.com

RECEIVED

SEp i s m

-'■f

‘I

PROOF OF SERVICE
I, Lorcan T. Kilroy,
2020, as required by
do swear or declare that on this date,
Supreme Court Rule 29, I have served the enclosed:
‘Petition For Extraordinary Writ Of Mandamus’
, on each party to the above proceeding or that party’s counsel, and on every
other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of them
and with first-class postage prepaid, or by delivery to a third-party commercial
carrier for delivery within 3 calendar days, to:
Thomas C. Hurrell,
Melinda Cantrall
Hurrell Cantrall
300 South Grand Avenue, Suite 1300
Los Angeles, California 90071
213-426-2000
(representing Defendants Los Angeles Unified School District et al.)

I declare under penalty of perjury that the foregoing is true and correct.
Executed ons

2020,
By: /s/ Lorcan T. Kilroy
LORCAN T. KILROY
Petitioner In Pro Se

8927 Cedros Avenue, No. 6
Panorama City, California
91402
Telephone: (818) 481-4873
Email: lorcankilroy@gmail.com

